      FOLLOW-UP AUDIT OF
DOT’S RULEMAKING PROCESS AND
       TRACKING SYSTEM
      Department of Transportation

      Report Number: SC-2005-031
     Date Issued: December 21, 2004
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Follow-up Report on DOT’s                                                    Date:    December 21, 2004
           Rulemaking Process and Tracking System,
           SC-2005-031

  From:    Alexis M. Stefani                                                                 Reply to
                                                                                             Attn. of:    JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Deputy Secretary
           Chief of Staff
           General Counsel

           This report presents the results of the Office of Inspector General (OIG) follow-up
           audit of the Department of Transportation’s (DOT) rulemaking process and
           tracking system. We conducted this audit as a follow-up to our March 2, 2004
           report on the Department’s rulemaking process.1 This audit was requested by
           Representative James L. Oberstar, ranking Democratic member of the House
           Committee on Transportation and Infrastructure.

           The objective of our review was to update DOT’s progress in managing its
           rulemaking process and meeting its deadlines. This follow-up report covers
           DOT’s overall progress in issuing significant2 rulemaking actions and is a
           snapshot of DOT’s rulemaking performance during the 1-year period from
           July 1, 2003, through June 30, 2004. Our audit scope and methodology can be
           found in Exhibit A.


           RESULTS IN BRIEF
           DOT continues to make progress in issuing its rules, especially old and
           congressionally mandated rules with deadlines.         However, the Operating
           Administrations continue to miss internal milestones, and DOT needs to continue
           to work on reducing the number of old rulemakings. The overriding reason for

           1
               OIG Report Number SC-2004-035, “Report on the Department of Transportation’s Rulemaking Process and
               Tracking System,” March 2, 2004. OIG reports can be accessed on our Website: www.oig.dot.gov.
           2
               A significant rule is one that is costly (usually over $100 million), controversial, or of substantial public interest.
                                                                                                                  2


DOT’s progress has been the priority given to rulemaking by the Secretary,
Deputy Secretary, Chief of Staff, and General Counsel.

• Issuing Significant Rules. As compared to 1999,3 DOT completed 39 percent
  more rules in 2004.4 The average time to complete rules increased by
  approximately 1.5 years from 3.9 years in 1999 to 5.4 years in 2004 (as is
  shown in Table 1 on page 6); but the increase reflects the attention given by
  DOT to resolving old rules, either by publishing, withdrawing, or terminating
  them. Resolving old rules increases the overall average time to complete rules.
  For example, in 2004, DOT completed 10 rules over 5 years old. When these
  10 rules are removed, the average time to complete a rule in 2004 is reduced to
  2.6 years.

• Publishing Congressionally Mandated Rules With Deadlines. Since March
  2004, DOT published 6 of the 13 congressionally mandated overdue rules with
  deadlines. Two additional congressionally mandated rules with deadlines were
  added during our current review. The nine remaining rules are now overdue by
  an average of 9.3 years, compared to an average of 8.5 years during our prior
  review, as is shown in Table 2 on page 8.

• Publishing Oldest Rules. Of DOT’s 14 oldest rules (all more than 10 years
  old) that were identified in our March 2004 report, 4 rules have been
  published. Since our March 2004 report, no additional rules became 10 years
  old or older during this review, as is shown in Table 3 on page 11.

DOT had 93 significant rules in process at the beginning of our audit period on
July 1, 2003, and 85 significant rules were pending on June 30, 2004, the end of
our audit period. These 85 rules were in various stages of the rulemaking process,
with an average of 5.1 years and a median of 3.4 years. These 85 significant rules
establish transportation policy for the transportation industry in the areas of safety,
mobility, economic growth, and environment. For example, DOT recently
proposed or issued the following rules.

      − Standards for all seats on board passenger aircraft that will result in
        increased passenger protection and survivability in survivable impact
        accidents.

      − National Bridge Inspection Standards amended and updated so they
        incorporate state-of-the-art bridge inspection practices for ensuring the
        safety of the traveling public.

3
    The July 20, 2000 OIG report (Number MH-2000-109) analyzed data from 1999.
4
    The 2004 data represent a “snapshot” of rulemaking activities, as cited in DOT’s Rulemaking Tracking System, for
    significant rules from July 2003 through June 2004.
                                                                                                            3


      − Standards to reduce the incidence of collisions between trains and
        commercial motor vehicles.

As we previously reported, the overriding reason for DOT’s progress continues to
be the priority attention given to rulemaking by the highest levels of DOT’s
management, namely the Secretary, Deputy Secretary, Chief of Staff, and General
Counsel. The Secretary has taken an active interest in improving DOT’s
rulemaking process and has emphasized to senior DOT managers the need to
ensure that rules are completed in a timely manner or that problems and issues
causing delays are identified and fixed. Additionally, congressional interest in
DOT’s rulemaking process has resulted in greater emphasis by DOT and several
OIG audit reports in identifying ways to improve the rulemaking process.

Since our last report, DOT has taken steps to further improve the methods by
which it manages and oversees the rulemaking process. The Operating
Administrations are now using the rulemaking tracking system as a management
tool and continue to enter more complete information in the tracking system.
Further, DOT has implemented a process whereby a different Operating
Administration meets with the Deputy Secretary, the Chief of Staff, and the
General Counsel in a weekly regulatory review meeting to discuss any issues
associated with the rules in the Operating Administration’s significant and non-
significant pending rules reports.5 The significant and non-significant pending
rules report provides the next target date for each open rule and the progress made
in meeting that date. DOT is using this report to help the Operating
Administrations focus attention on rules at risk of missing their target dates and
prioritize their rulemaking efforts.

Because DOT recently implemented recommendations included in our March
2004 report, it is too early to see the overall results of changes DOT has made to
improve the methods by which it manages and oversees the rulemaking process.
Therefore, we do not make any recommendations in this report. However, DOT
must continue its focused attention on the rulemaking process and work on
meeting its internally established milestone dates.

DOT generally agreed with the report findings. However, they disagreed with
OIG’s inclusion of three rules in Table 2 where an interim final rule (IFR) had
been issued. They stated that, by issuing an IFR, the agency met the congressional
mandate and thus the rules should not be considered overdue. We acknowledge
that an IFR was published by agencies; however, based on public comment, the
provisions of the IFR can be changed. As a result, it is our opinion that the three


5
    Each Operating Administration meets with the Deputy Secretary, the Chief of Staff, and the General Counsel
    approximately every 10 weeks.
                                                                                                             4


rules should remain in Table 2 because the purpose of the table is to show those
rules requiring more work before the final rule can be issued.


BACKGROUND
By issuing rules, DOT establishes transportation policy and requirements for the
transportation industry in the areas of safety, mobility, economic growth, the
environment, and national security. A need for rulemaking can be identified
internally by DOT or externally by such bodies as Congress and the National
Transportation Safety Board. The basic rulemaking stages are notice of proposed
rulemaking (NPRM) and final rule, other stages are advanced NPRM (ANPRM),
supplemental NPRM (SNPRM), and IFR. For each stage of a rulemaking, there
are a series of internal steps, called “milestones,” all of which must be completed
before a rulemaking is issued. Milestones are steps such as submission of the
rulemaking to DOT’s Office of the Secretary and submission to the Office of
Management and Budget (OMB). DOT’s rulemaking process usually begins with
a rule proposal that assesses the effects on society or industry and ends with a final
rule published in the Federal Register.6 Under Executive Order Number 12866,
“Regulatory Planning and Review,” September 30, 1993, “…each agency shall
develop its regulatory actions in a timely fashion.”

The number of significant rulemakings that DOT is processing or working on at
any point frequently changes. The number of rules in process decreases as final
rules are issued or proposed rules are withdrawn, and the number increases as new
rules are initiated. As events change, some rules are changed from “significant” to
“nonsignificant” or from “nonsignificant” to “significant.”

In response to congressional concerns regarding DOT’s timeliness in issuing its
rules, we reviewed the Department’s rulemaking process in 1993 and in 2000.7
Both reviews identified DOT’s need to improve the timeliness for completing
rules. In our July 2000 report, we recommended that DOT implement a
Department-wide rulemaking tracking and monitoring system to identify problems
occurring both Department-wide and at the individual Operating Administrations.
DOT implemented an Intranet-based rulemaking tracking system with reporting
capabilities in October 2002. See Exhibit C for prior audit coverage.

In response to a congressional request on February 4, 2003, we conducted a two-
phase review of DOT’s rulemaking process and issued our first report on March 2,
2004. That report found that DOT’s rulemaking activities and key metrics

6
    Final rules are subsequently published in the Code of Federal Regulations.
7
    OIG, “Report on the Department of Transportation Rulemaking Process,” March 23, 1993, and OIG Report Number
    MH-2000-109, “The Department of Transportation’s Rulemaking Process,” July 20, 2000.
                                                                                   5


indicate that DOT is making progress, but there was still room for improvement.
The report attributed DOT’s progress to the attention given to rulemaking by the
highest levels of DOT’s management. DOT’s October 2002 implementation of
the rulemaking tracking system was also a major contributing factor to DOT’s
progress.


RESULTS
DOT is making progress in issuing its rules, especially old and congressionally
mandated rules. The overriding reason for DOT’s progress has been the priority
given to rulemaking by the Secretary, Deputy Secretary, Chief of Staff, and
General Counsel. However, the Operating Administrations continue to miss
internal milestones, and DOT still has a backlog of old rulemakings.


DOT Continues to Make Progress in Issuing Significant Rules,
Including Congressionally Mandated Rules With Deadlines

Significant Rules
DOT continues to make progress in completing its significant rules. The progress
can be seen by comparing 1999 data (1999 data were reviewed as part of the
report we issued in July 2000) to 2004 data, as is shown in Table 1. DOT
completed 39 percent more rules in 2004 than in 1999. The average time to
complete rules increased by 1.5 years, from 3.9 years in 1999 to 5.4 years in 2004;
but the increase reflects the attention given by DOT to resolving the rules that
were at least 10 years old (either by publishing, withdrawing, or terminating
them). By resolving old rules, the overall average time to complete rules
increases. DOT issued six rules older than 10 years old in 2004, with the oldest
rule issued being over 22 years old.

Table 1 shows the number of completed rulemakings from July 2003 through June
2004 and the average time to complete those rules. The “All Rules” columns of
Table 1 show all rulemakings completed in 1999 and 2004 and their average times
to completion. For 2004, we removed the rules that were 8 years old or older,
recognizing that as DOT clears out its old rules, the “average time to complete”
increases. Removing rules 8 years or older resulted in an average of 3.1 years to
complete rules in 2004, and an average of 2.8 years to complete rules in 1999.
However, just removing the rules that are 8 years or older does not necessarily
remove all the old rules. In 2004, DOT completed 10 rules over 5 years old.
DOT’s efforts to issue these 10 rules over 5 years old has resulted in an increase in
the average time to complete a rule. When these 10 rules are removed, the
average time to complete a rule is reduced to 2.6 years.
                                                                                                                     6


         Table 1. Significant Rules Completed in 1999 and 2004
                      by Operating Administration
                          1999 Rulesb/                                   2004 Rulesc/
                           All Rules                         All Rules         Does Not Include Rules
                                                                                8 Years Old or Older
                                  Average                         Average                 Average
                                   Time to                         Time to                 Time to
                    No. of        Complete            No. of      Complete      No. of    Complete
 Agencya/           Rules         (Years)d/           Rules       (Years)d/     Rules     (Years)d/
FAA                   3             3.0                 7            3.9          6          2.0
FHWA                  3             2.3                 4            4.5          4          4.5
FMCSA e /           N/A            N/A                  8            7.1          4          3.9
RSPA f /              3             5.9                 2            4.1          2          4.1
NHTSA                 4             3.7                 6            7.2          4          1.5
FRA                   1             2.9                 2            3.4          2          3.4
FTA                   1             0.3                 0            0.0          0          0.0
BTS                   1             3.6                 0            0.0          0          0.0
OST                   3             6.6                 2            3.3          2          3.3
 Total               19                                31                        24
 Average                             3.9                             5.4                     3.1
a/ See Exhibit B for a list of abbreviations.
b/ These significant rules represent a “snapshot” of rulemaking activities, as cited in the 1999 spring and fall DOT
   Semiannual Regulatory Agendas.
c/ These significant rules represent a “snapshot” of rulemaking activities, as cited in DOT’s reports on significant rules,
   between July 2003 and June 2004.
d/ The times to complete rules were calculated from the first official action dates (for example, NPRM or ANPRM) to the
   completion dates.
e/ FMCSA was established as a separate DOT administration (apart from FHWA) on January 1, 2000.
f/ As a result of the Norman Y. Mineta Research and Special Programs Improvement Act (P.L, 108-426) passed on
   November 30, 2004, the Department will dissolve the RSPA and establish the new Research and Innovative
   Technologies Administration (RITA) and the Pipeline and Hazardous Materials Safety Administration (PHMSA).
   All RSPA rules will be transferred to these two new administrations.



Congressionally Mandated Significant Rules with Deadlines
Our current review also found that DOT showed improvement in meeting its
statutory deadlines.    For the period ending June 2004, the number of
congressionally mandated rules with deadlines not completed decreased from 43
rules in 1993 to 9 rules in 2004. The figure below shows a comparison of the
number of rules not completed in 1993, 1999, 2003, and 2004.
                                                                                        7



                                          Comparison of
                                       Congressionally Mandated
                                 Overdue Rules with Statutory Deadlines a/




               Number of Rules
                                 50    43
                                 40
                                                29
                                 30
                                 20                      13
                                                                          9
                                 10
                                  0
                                      1993      1999     2003           2004b/

            a/ Data sources: Federal Register, October 25, 1993; Federal Register,
               November 22, 1999; OIG Report Number SC-2004-035, “Report on the
               Department of Transportation’s Rulemaking Process and Tracking
               System,” March 2, 2004; and Federal Register, June 17, 2004.
            b/ For the nine rules not completed by June 2004, all statutory deadlines
               had passed.


DOT decreased the number of overdue rules with statutory deadlines from July
2003 through July 2004. In our last report, we reported that 13 congressionally
mandated rules with statutory deadlines were overdue as of July 2003. From July
2003 to July 2004, six rules were issued and two were added, for a total of nine
overdue congressionally mandated rules with statutory deadlines. These nine rules
are now overdue by an average of 9.3 years, compared to the average of 8.5 years
shown in our last report.

The two rules that were added during this review were not included in our prior
report because they were not properly reported in the DOT tracking system. One
rule was not identified in the July 2003 tracking system report as a congressionally
mandated rule with a deadline, so it was not included in our prior report. This rule
would amend the hours-of-service recordkeeping requirements to clarify what
supporting documents motor carriers must have to validate hours-of-service
records. This action is required by the Hazardous Materials Transportation
Authorization Act of 1994. The second rule was not included because the July
2003 tracking system report did not identify the rule as having a legal deadline for
the final rule. This rule, which is also from the Federal Motor Carrier Safety
Administration (FMCSA), would require that any safety inspection, audit, or
review be conducted by a certified safety auditor, inspector, or investigator.

DOT has work in progress to resolve the nine congressionally mandated rules with
statutory deadlines still overdue (see Table 2). Exhibit D shows the rules with
statutory deadlines included in the semiannual regulatory agendas from 1999
through September 30, 2004.
                                                                                                          8


       Table 2. Overdue Congressionally Mandated Rules with
                        Statutory Deadlines
                        As of June 30, 2004
  Agencya/              Title              Required       Original       Years        Current Status as of
                                            Action        Deadline      Overdue       December 2, 2004 b/
                                                                                    An NPRM was
               Drug Enforcement
 FAA                                       Final Rule     9/18/1989       14.8      submitted to OMB on
               Assistance
                                                                                    11/29/2004.
               Commercial Driver’s                                                  This rulemaking was
 FMCSA         License Standards—          Final Rule    12/31/1990       13.5      approved for withdrawal
               Biometric Identifier                                                 on 11/17/2004.
               Safeguarding Food                                                    An SNPRM was cleared
 RSPA          from Contamination          Final Rule     8/1/1991        12.9      by OMB on 12/15/2004.
               During Transport
                                                                                    The final rule was
               Response Plans for
 RSPA                                      Final Rule     8/18/1992       11.9      submitted to OMB on
               Onshore Oil Pipelinesc/
                                                                                    11/17/2004.
                                                                                    FMCSA is unclear on
               Railroad-Highway
 FMCSA                                     Final Rule     2/16/1995        9.4      the action they want to
               Crossing
                                                                                    take on this rule.
               Hours of Service of                                                  An SNPRM was
 FMCSA         Drivers: Supporting         Final Rule     2/26/1996        8.3      published on 11/3/2004.
               Documentsc/
                                                                                    An NPRM was
               Unified Registration                                                 submitted to the Office
 FMCSA                                     Final Rule     1/1/1998         6.5
               Process                                                              of General Counsel on
                                                                                    12/16/2004.
                                                                                    Based on comments to
               Certification of Safety
                                                                                    the IFR, DOT will
               Auditors, Safety
 FMCSA                                     Final Rule     12/9/2000        3.6      publish an NPRM that
               Investigators, and
                                                                                    will address issues not
               Safety Inspectorsc/ d/
                                                                                    raised in the IFR.
                                                                                    The final rule was
 FRA           Whistle Bansc/              Final Rule     7/1/2001         3.0      submitted to OMB on
                                                                                    11/16/2004.
a/ See Exhibit B for a list of DOT acronyms.
b/ As reported in DOT’s report on significant rules, December 2004
c/ An IFR was issued: Response Plans for Onshore Oil Pipelines on 1/5/1993, Whistle Bans on 12/18/2003, and
   Certification of Safety Auditors, Safety Investigators, and Safety Inspectors on 3/19/2002.
d/ Not included in our prior report because the July 2003 tracking system report did not include the appropriate
   information. The Hours of Service of Drivers rule was not identified as a congressionally mandated rule. The
   Certification of Safety Auditors rule was not identified as having a legal deadline for the final rule.

As is shown in Table 2, three of the nine overdue congressionally mandated
rules with statutory deadlines were published as IFRs. Agencies publish IFRs
when they have met the requirements for issuing final rules but desire to obtain
public comment on the provisions of the final rule.
                                                                                                                9


DOT Needs to Continue to Focus on the Timeliness of
Rulemaking
Since 1999, DOT has made progress in meeting the deadlines for issuing final
rules and NPRMs, and in promulgating difficult and complex rules. The
overriding reason for DOT’s rulemaking progress has been the priority attention
given to rulemaking by the highest levels of DOT’s management. However, the
Operating Administrations continue to miss internal milestones, and DOT still has
a backlog of old rulemakings.

To meet the issuance dates, the Operating Administrations establish milestone
dates for each of the key steps that must be completed for each stage of the
rulemaking prior to issuance. For example, an Operating Administration
establishes and enters into the tracking system the key milestone dates by which it
estimates a final rule or NPRM (1) will be sent to the Office of the Secretary of
Transportation (OST), (2) will be cleared by OST and sent to OMB, (3) will be
cleared by OMB, and (4) will be published in the Federal Register.

Internal Milestone Dates Were Missed
Of the 85 pending rules as of June 30, 2004, 64 had internally established
milestone dates between July 1, 2003 and June 30, 2004. For these 64 rules,
milestones for:

      • 21 rules (33 percent) were completed by the estimated dates,8 up slightly
        from the 31 percent during our prior review;

      • 40 rules (62 percent) had not been completed by June 30, 2004, up from the
        48 percent during the prior review; and

      • 3 rules (5 percent) were not completed by the estimated dates, down from
        21 percent during the prior review.

Our review of the 43 rules that missed their estimated milestone dates showed that
34 rules were delayed at the Operating Administrations, 6 at OST, and 3 at OMB.
For example, a proposed FAA rule to amend commercial space transportation
regulations governing licensing and safety requirements for launch sites was
delayed at FAA so a contractor could be hired to perform an independent
economic assessment. The delays of the 43 rules ranged from 2 days to 352 days.
Rules were delayed for the following reasons.9

      • 15 rules had unanticipated issues requiring further analysis.

8
    Given that some milestone dates were estimated 6 months ahead of time, we considered the milestones met if the
    actions were completed within 14 calendar days of the target dates.
9
    A single rule can have more than one reason for being delayed.
                                                                                    10


   • 16 rules needed additional coordination with other entities.

   • 3 rules needed the development of additional data.

   • 9 rules had staff diverted to work on higher priority rules or other issues.


Progress Made in Reducing the Backlog of Old Rules
Our audit included reviewing DOT’s progress in completing the oldest rules.
DOT has made progress in this area but continues to have a backlog of old rules.

In our March 2004 report, we identified 14 rules that were 10 years old or older.
During this review, we tracked DOT’s progress in completing the 14 oldest rules,
and found that it has issued 4. No additional rules reached the 10-year old or older
mark during this review. Thus, as of June 30, 2004, there were 10 significant rules
that were more than 10 years old (see Table 3).
                                                                                                             11




                      Table 3. Oldest Open Significant Rules
                                As of June 30, 2004
                                                                      Start      Years        Current Status as of
 Rank      Agencya/                     Title                         Date       Open         December 2, 2004 b/
   1         FAA        Retrofit of Improved Seats in Air        12/30/1987      16.5    FAA sent a final rule to OST
                        Carrier Transport Category                                       on 12/7/2004.
                        Airplanes
   2         FAA        Drug Enforcement Assistancec/            11/18/1988      15.6    An NPRM was submitted to
                                                                                         OMB on 11/29/2004.
   3       FMCSA        Commercial Driver’s License              11/18/1988      15.6    This rulemaking was approved
                        (CDL) Standards—Biometric                                        for withdrawal on 11/17/2004.
                        Identifierc/
   4         OST        Accessibility of Passenger Vessels           7/26/1990   13.9    An ANPRM was published
                        to Individuals with Disabilities                                 on 11/29/2004.
   5        RSPA        Safeguarding Food From                   10/21/1990      13.7    An SNPRM was cleared by
                        Contamination During Transportc/                                 OMB on 12/15/2004.
   6       FMCSA        Qualifications of Drivers; Vision             2/1/1991   13.4    As of 11/23/2004, FMCSA is
                                                                                         working on the NPRM.
   7         FAA        Aging Aircraft Safety                    10/28/1991      12.7    The final rule was submitted
                                                                                         to OMB on 10/6/2004.
   8         FAA        Corrosion Prevention and Control         10/28/1991      12.7    The rule was withdrawn on
                        Programc/                                                        8/16/2004. This rule was
                                                                                         withdrawn because FAA
                                                                                         believes that the safety
                                                                                         objectives of this rule can be
                                                                                         accomplished by other means,
                                                                                         including other rulemakings.
   9        RSPA        Response Plans for Onshore Oil               4/12/1992   12.2    The final rule was submitted
                        Pipelinesc/                                                      to OMB on 11/17/2004.
   10      FMCSA        Commercial Driver’s Physical                 7/15/1993   11.0    FMCSA is unclear on the
                        Fitness as Part of the CDL Process                               action it wants to take on this
                                                                                         rule.
a/ See Exhibit B for a list of DOT acronyms.
b/ As reported in DOT’s report on significant rules, December 2004
c/ This rule also has a congressionally mandated deadline.


The 4 oldest significant rules DOT published, all were congressionally mandated
FMCSA rules. They were required to be published by June 2004 under a February
2003 settlement agreement between DOT and public interest groups.

Our prior report identified three rules that DOT was not actively working on
(Rules 2, 3, and 4 listed above). Since March 2004, DOT has taken action on all
three rules. On August 25, 2004, FAA sent OST a request to withdraw the NPRM
for Drug Enforcement Assistance. The requirements of this rule instead will be
incorporated in a new NPRM. For the Accessibility of Passenger Vessels rule,
OST forwarded the draft ANPRM to the Office of General Counsel on August 12,
2004, and that office forwarded the rule to OMB on September 14, 2004. The
                                                                                                                12


proposed FMCSA rule to establish minimum uniform standards for a biometric
identification system for commercial motor vehicle operators was approved for
withdrawal by DOT on November 17, 2004.

Our prior report also looked at rules that were open 5 years or more. DOT
continues to make progress in reducing the number of these rules, as can be seen
in Table 4, which compares 1999 data to 2004 data. The number of rules open
5 years or more decreased by 20, from 54 in 1999 to 34 in 2004.

             Table 4. Significant Rules Open 5 Years or More
                       by Operating Administration

                             As of November 22, 1999 a/                    As of June 30, 2004 b/
                                         No. of Rules                                  No. of Rules
                              No. of     Open 5 Years                      No. of     Open 5 Years
     Agency c/              Rules Open    or Mored/                      Rules Open     or Mored/
   FMCSAe/                     N/A          N/A                               19              7
   FAA                           50           22                              30            15
   OST                           11            5                               9              3
   FHWA                          37           13                               2              0
   RSPA                          11            5                               7              2
   NHTSA                          9            5                               8              1
   FRA                           10            3                               5              5
   MARAD                          2            0                               4              1
   FTA                            6            1                               1              0
    Total                      136            54                              85            34
a/ These significant rules represent a “snapshot” of rulemaking activities, as cited in the DOT Semiannual
   Regulatory Agenda, November 22, 1999.
b/ These significant rules represent a “snapshot” of rulemaking activities, as cited in DOT’s report on significant
   rules as of June 30, 2004.
c/ See Exhibit B for a list of DOT acronyms.
d/ The rule’s time in process was calculated from the rule’s initiation date to November 22, 1999 for 1999 rules and
   to June 30, 2004 for 2004 rules.
e/ FMCSA was established as a new DOT administration (separate from the Federal Highway Administration) on
   January 1, 2000.


Although progress has been made, DOT senior officials should continue to focus
on reducing the number of old rules and overdue congressionally mandated rules.
FMCSA has taken a significant step to reduce its backlog of old rules. For
example, FMCSA has received permission from Congress to reprogram
$3.2 million in border enforcement funds to help eliminate its rulemaking backlog.
On August 5, 2004, OMB apportioned the reprogrammed funds for FMCSA’s use.
FMCSA will use the funds to extend the tenure of regulatory writers and to hire
additional legal and analytical staff, all for a period of 18 months. This increase in
staff should help FMCSA reduce its number of old (three) and overdue (five)
congressionally mandated rules with deadlines.
                                                                                                                     13


DOT Makes Progress Using Management Tools To Oversee the
Rulemaking Process
In our prior review, we found that the Operating Administrations were not
entering timely and complete information into the tracking system and were not
using the tracking system as a management tool. During this review, we
reevaluated the sufficiency of the information the Operating Administrations were
entering into the tracking system and the Operating Administrations’ use of the
tracking system. We found that DOT has made progress using the tracking system
and is now using an additional rule tracking report to manage and oversee the
rulemaking process.

We found that of the 85 significant rulemakings open as of June 30, 2004, only
9 rules (11 percent) had no internal schedule, down from 22 percent in our March
2004 review. In that review, the Operating Administrations did not explain the
reasons for the delays in the tracking system for 57 percent of the rules that missed
their milestones as of June 30, 2003. During this review, we found that of the
43 rules that missed their milestones as of June 30, 2004, the reasons for the
delays were not explained in the tracking system for only 8 rules (19 percent).10

Although the Operating Administrations have increased the amount of information
entered into the tracking system, improvements are still needed in the level of
detail. For example, the explanation provided in the tracking system for the delay
in an FAA rule amending the commercial space transportation regulations was that
additional coordination was necessary. According to FAA, it hired a contractor to
conduct an independent economic assessment, and upon the completion of the
assessment, FAA forwarded the SNPRM to the Office of General Counsel on
July 19, 2004, for review. This information was not provided in the tracking
system.

In our March 2004 report, we reported that the Operating Administrations were
not using the tracking system as a management tool. We recommended that, for
rules that have missed their original issuance dates, DOT managers implement a
mechanism to monitor and track the progress of these rules against the revised
target dates.

As a result of our March 2004 recommendation, Operating Administrations are
now using the tracking system as a management tool. However, they have not
implemented a mechanism to monitor and track the progress of rules against
revised target dates. Instead, DOT has implemented another management tool to

10
     A DOT official stated that an explanation for the delay will only be provided in the tracking system for those rules
     that have missed, or are expected to miss, a statutory deadline or a publication date. If a rule misses an internal
     milestone (for example, forwarding a rule to OST or OMB) but the Operating Administration believes that the delay
     can be made up in a later milestone, DOT will not provide an explanation for the delay.
                                                                                    14


address the concerns in our prior report and to better monitor rules. DOT has
implemented a process whereby a different Operating Administration meets with
the Deputy Secretary, the Chief of Staff, and the General Counsel in a weekly
regulatory review meeting to discuss any issues associated with the rules in the
Operating Administration’s significant and non-significant pending rules reports.
The significant and non-significant pending rules report provides the next target
date for each open rule and the progress made in meeting that date. DOT is using
this report to help the Operating Administrations focus attention on rules at risk of
missing their target dates and prioritize rulemaking efforts.

An official from the Federal Highway Administration stated that this management
tool has enabled the Federal Highway Administration to issue rules in a timelier
manner. The official also stated that regular meetings with his Administrator to
discuss the progress of all rulemaking actions has led to increased attention to
rulemaking projects, dedication of necessary resources to the project, and timely
management decision-making.

A review of DOT’s status of rules shows that DOT has made improvements in
tracking rules. As of July 2004, 48 rules in the tracking system missed their target
date and so are categorized as red in the color code system (see Table 5).
However, this is a decrease from the 55 rules classified as red in July 2003.
Further, more rules have moved into the green “on schedule” status; at the same
time DOT has decreased the number of rules with no schedule (black rules) by
half.


            Table 5. Status by Color Code of Open Rules
                                        As of July 2003         As of July 2004
                                       No. of     Percent      No. of    Percent
Status Color       Description         Rules     of Total      Rules     of Total
 Green         On schedule              17         19           25          30
 Yellow        May miss target date      2          2            4           5
 Red           Missed target date       55         61           48          56
 Black         No schedule              16         18            8           9
  Total                                 90        100           85         100


DOT recently implemented recommendations included in our March 2004 report;
therefore it is too early to see the overall results of changes DOT has made to
improve the methods by which it manages and oversees the rulemaking process.
Consequently, we do not make any recommendations in this report. However,
DOT must continue its focused attention on the rulemaking process in addition to
continuing the highest level of management oversight.
                                                                                  15


MANAGEMENT COMMENTS AND OIG RESPONSE
Because we are making no recommendations in this report, no response is
required. A draft of this report was provided to the Assistant General Counsel for
Regulation and Enforcement on November 15, 2004. At a December 3, 2004
meeting, the Assistant General Counsel for Regulation and Enforcement generally
agreed with the report findings. However, he disagreed with the OIG’s inclusion
of three rules in Table 2 for which an IFR had been issued, stating that, by issuing
an IFR, the agency met the congressional mandate and thus the rules should not be
considered overdue. We acknowledge that an IFR was published by agencies;
however, based on public comment, the provisions of the IFR can be changed. As
a result, it is our opinion that the three rules should remain in Table 2 because the
purpose of the table is to show those rules requiring more work before the final
rule can be issued.


ACTION REQUIRED
Because we are making no recommendations in this report, no response is
required. We appreciate the courtesies and cooperation of Department of
Transportation representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366-1992 or Robin Hunt, Deputy
Assistant Inspector General for Hazardous Materials, Security and Special
Programs, at (415) 744-0420.


                                         #
                                                                                16




EXHIBIT A. SCOPE AND METHODOLOGY
This was a Department-wide audit of the processes to develop and issue
significant rulemaking actions. A significant rule is one that is costly (usually
over $100 million), controversial, or of substantial public interest. The audit was
conducted in the Office of the Secretary of Transportation and DOT’s Operating
Administrations in Washington, D.C.

We conducted this audit as a follow-up to our March 2, 2004 report on the
Department’s rulemaking process.          This audit was also requested by
Representative James L. Oberstar, ranking Democratic member of the House
Committee on Transportation and Infrastructure. This report covers DOT’s
overall progress in issuing significant rulemaking actions for the 1-year period
from July 1, 2003 through June 30, 2004. During this review, we updated data
from the March 2004 report as of December 2004.

We obtained and analyzed Operating Administration data from DOT’s reports on
significant rules from July 2003 through June 2004 to provide updated information
on the number of rules issued and the average time to issue those rules. We
compared the data to the 1999 data identified in our March 2004 report to
determine if DOT’s rulemaking process has improved since earlier OIG audits
(see Table 1 on page 6).

To assess DOT’s progress in meeting statutory deadlines in 2004, we compared
2004 data, as cited in the June 17, 2004 Federal Register to 1993, 1999, and 2003
data as cited in (1) the October 25, 1993 Federal Register, (2) the November 22,
1999 Federal Register, and (3) data from this OIG audit from January 1 through
June 30, 2004 (see the figure on page 7).

We obtained and analyzed data for all 85 significant DOT pending rulemakings as
of June 30, 2004. We identified 64 rules with original or revised milestones
between July 1, 2003 and June 30, 2004. For these rules, we identified (1) how
many rulemaking actions were completed on schedule, (2) how many were
completed behind schedule, and (3) how many were not completed during the
1-year period. In addition, our analysis included information on the length and
cause of the delays.

In this report, we updated data that were originally provided in our March 2004
report. We analyzed the data to determine DOT’s progress in issuing (1) overdue
significant congressionally mandated rules (see Table 2 on page 8), (2) the oldest
significant rules (see Table 3 on page 11), and (3) the significant rules that had
been open for 5 years or longer (see Table 4 on page 12).


Exhibit A. Scope and Methodology
                                                                                                                  17


We reviewed the 85 significant DOT pending rulemakings (as of June 30, 2004)
being tracked in the DOT rulemaking tracking system to determine DOT’s
assessment of whether the rule was on track to meet the milestone schedule, was
in danger of missing milestones, or had already missed milestone dates (see
Table 5 on page 14).

We identified significant rules with statutory deadlines in process by reviewing the
DOT Semiannual Regulatory Agendas for fall 1999 through spring 2004 and
DOT’s reports on significant rules from October 2002 through October 2004 (the
October reports reflects September information).

We also interviewed appropriate DOT officials in OST and eight of the Operating
Administrations11 to understand the rulemaking process throughout the
Department, identify the causes for rules being delayed, and determine the extent
of officials’ use of the rulemaking tracking system.

We performed the audit from July through December 2004 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States and included such tests as we considered necessary to provide
reasonable assurance of detecting abuse or illegal acts.




11
     The eight Operating Administrations were the Federal Aviation Administration, the Federal Highway
     Administration, the Federal Transit Administration, the Federal Railroad Administration, the Research and Special
     Programs Administration, the Maritime Administration, the National Highway Traffic Safety Administration, and
     the Federal Motor Carrier Safety Administration.




Exhibit A. Scope and Methodology
                                                                  18




EXHIBIT B. LIST OF DOT ABBREVIATIONS

     BTS         Bureau of Transportation Statistics

     FAA         Federal Aviation Administration

     FHWA        Federal Highway Administration

     FMCSA       Federal Motor Carrier Safety Administration

     FRA         Federal Railroad Administration

     FTA         Federal Transit Administration

     NHTSA       National Highway Traffic Safety Administration

     OST         Office of the Secretary of Transportation

     RSPA        Research and Special Programs Administration




Exhibit B. List of DOT Abbreviations
                                                                                  19




EXHIBIT C. PRIOR AUDIT COVERAGE
OIG Report Number SC-2004-035, “Audit of DOT’s Rulemaking
Process and Tracking System,” March 2, 2004
We found that the key metrics for rulemaking indicated that DOT was making
progress in its management and oversight of the rulemaking process, but there was
still room for improvement. For 2003, DOT’s average time to completion was
3.0 years for all rules. Without the four oldest rules (over 8 years old), DOT’s
average was 1.7 years. The report also found that the overriding reason for DOT’s
progress was the priority given to rulemaking by the highest levels of DOT’s
management. The implementation of the rulemaking tracking system was also a
major contributing factor to DOT’s progress. We recommended that the
Operating Administrations review and analyze pending rulemakings and focus
their efforts on completing the oldest rules. The report also recommended that
DOT require compliance with the Secretary’s directive that instructed Operating
Administrators to input reliable data into the rulemaking tracking system and use
the system to monitor rules.

In response to our audit, DOT has implemented a process whereby a different
Operating Administration meets with the Deputy Secretary, the Chief of Staff, and
the General Counsel in a weekly regulatory review meeting to discuss any issues
associated with the rules in the Operating Administration’s significant and non-
significant pending rules reports. The significant and non-significant pending
rules report provides each open rule’s next target date and the progress in meeting
that date. DOT is using this report to help the Operating Administrations in
focusing attention on rules at risk of missing their target dates and in prioritizing
rulemaking efforts.


OIG Report Number MH-2000-109, “The Department of
Transportation’s Rulemaking Process,” July 20, 2000
We found that DOT took more than twice as long and completed half as many
significant rules in 1999 as it did in 1993. The time to complete a rule—from
publishing the initial proposed rule to publishing the final rule—increased from an
average of 1.8 years and a median of 10 months in 1993 to an average of 3.8 years
and a median of 2.8 years in 1999. Also, during 1999, the Department had not
completed action on 152 rules that had been in development for an average of
3.1 years compared to 177 significant rules for an average of 2.1 years in 1993.
We recommended a series of actions to correct the Department’s deficiencies in
completing rules and managing the rulemaking process, which included


Exhibit C. Prior Audit Coverage
                                                                         20


implementing a Department-wide rulemaking tracking and monitoring system. In
response to our recommendations, DOT implemented an Intranet-based
rulemaking tracking system with reporting capabilities in October 2002.




Exhibit C. Prior Audit Coverage
                                                                                            21




EXHIBIT D. RULES WITH STATUTORY
DEADLINES INCLUDED IN THE SEMIANNUAL
REGULATORY AGENDA FROM 1999 TO
SEPTEMBER 30, 2004

 Agencya/                Title                  Required     Original      Deadline      Years
                                                 Action      Deadline     Completed     Overdue
                                                                           4/5/1999
   OST      New Restrictions on Lobbying        Final Rule   3/22/1990                    9.0
                                                                          Withdrawnb/
            Retrofit of Improved Seats in Air
   FAA      Carrier Transport Category           NPRM        4/28/1988     5/17/1988      0.1
            Airplanes
   FAA      Drug Enforcement Assistance         Final Rule   9/18/1989      Openc/       15.0
            Sole Radio Navigation System;
                                                                           6/21/2001
   FAA      Minimum Standards for               Final Rule   9/30/1989                   11.7
                                                                          Withdrawnd/
            Certification
   FAA      Aging Aircraft Safety                Initiate    4/24/1992    10/28/1991      N/A
            Anti-Drug and Alcohol Misuse
            Prevention Programs for
                                                                          1/13/2000
   FAA      Employees of Foreign Air            Final Rule   10/28/1992                   7.2
                                                                          Withdrawne/
            Carriers Engaged in Specified
            Aviation Activities
            Revisions to Passenger Facility
   FAA      Charge Rule for Compensation        Final Rule   6/12/2004     3/18/2004      N/A
            to Air Carriers
            Hours of Service of Drivers;
  FHWA      Supporting Document                  NPRM        8/26/1995     4/20/1998      2.7
            Recordkeepingf/ g/
            Federal Motor Carrier Safety
  FHWA      Regulations: Definition of          Final Rule    6/9/1999     1/11/2001      1.6
            Commercial Motor Vehicle g/
            Parts and Accessories Necessary
            for Safe Operation: Lighting
  FHWA                                          Final Rule    6/9/1999     3/31/1999      N/A
            Devices, Reflectors, and
            Electrical Equipment
  FHWA      Design-Build Contracting            Final Rule    6/9/2001    12/10/2002      1.5
            Commercial Driver’s License
  FMCSA                                         Final Rule   12/31/1990    Openc/ h/     13.8
            Standards—Biometric Identifier
            Federal Motor Carrier Safety
  FMCSA     Regulations: Hazardous              Final Rule   11/15/1991    6/30/2004     12.6
            Materials Safety Permits




Exhibit D. Rules with Statutory Deadlines from 1999 to
September 30, 2004
                                                                                            22



                                                Required      Original      Action       Years
 Agency a/                 Title
                                                 Action       Deadline     Completed    Overdue
             Minimum Training                     NPRM        12/18/1992   8/15/2003     10.7
             Requirements for Entry-Level
  FMCSA
             Commercial Motor Vehicle
             Operators                          Final Rule    12/18/1993   5/21/2004     10.4
             Minimum Training
             Requirements for Longer
  FMCSA      Combination Vehicle (LCV)          Final Rule    12/18/1993   3/30/2004     10.3
             Operators and LCV Driver-
             Instructor Requirements
             Railroad-Highway Grade
  FMCSA                                         Final Rule    2/26/1995      Openc/       9.6
             Crossing Safety
             Hours of Service of Drivers:
  FMCSA                                         Final Rule    2/26/1996      Openc/       8.6
             Supporting Documents
                                                 ANPRM         3/1/1996    11/5/1996      0.7
             Hours of Service of Drivers;
  FMCSA      Driver Rest and Sleep for Safe       NPRM        11/5/1997     5/2/2000      2.5
             Operations
                                                Final Rule     1/5/1999    4/28/2003      4.3
  FMCSA      Unified Registration System        Final Rule     1/1/1998      Openc/       6.8
             Interstate School Bus Body Joint
  FMCSA                                           Initiate    12/9/1998     6/9/1998      N/A
             Safety
             Safety Performance History of
  FMCSA                                           NPRM        1/31/1999    3/14/1996      N/A
             New Drivers
             Safety Requirements for
             Operators of Small Passenger-
  FMCSA      Carrying Commercial Motor          Final Rule    12/9/2000    8/12/2003      2.7
             Vehicles Used in Interstate
             Commerce
                                                                             Open c/
  FMCSA      Certification of Safety Auditors      Final      12/9/2000                   3.8
                                                                              IFR
             Uniform Criteria for State
  NHTSA      Observational Surveys of Seat      Final Rule    12/8/1998    3/14/2000      1.3
             Belt Use
  NHTSA      Advanced Air Bags                  Final Rule     3/1/2000    5/12/2000      0.2
                                                 ANPRM        12/1/2000    12/1/2000      N/A
  NHTSA      Improve Tire Safety Information
                                                Final Rule     6/1/2002    11/18/2002     0.5

             Early Warning Defect Reporting       Initiate     3/1/2001    11/1/2000      N/A
  NHTSA
             Requirements                       Final Rule    6/30/2002    7/10/2002      0.0
  NHTSA      Tire Pressure Monitoring System    Final Rule    11/30/2001    6/5/2002      0.5
             Automotive Fuel Economy
  NHTSA      Manufacturing Incentive for        Final Rule    12/31/2001   2/19/2004      2.1
             Alternative Fuel Vehicles
  NHTSA      Improved Tire Safety               Final Rule     6/1/2002    6/26/2003      1.1
             Federal Motor Vehicle Safety        Final Rule
  NHTSA      Standards; Child Restraint          or Report    11/1/2002    4/06/2004      1.4
             Anchorage Systems                  to Congress

Exhibit D. Rules with Statutory Deadlines from 1999 to
September 30, 2004
                                                                                                              23


                                                       Required        Original         Action          Years
  Agency a/                    Title
                                                        Action         Deadline        Completed       Overdue
                Power Brake Regulations:
     FRA                                               Final Rule      12/31/1993       1/17/2001          7.1
                Freight Power Brake Revisions
                Passenger Equipment Safety
     FRA                                               Final Rule      11/2/1997        5/12/1999          1.5
                Standards
                                                                                                c/
                Whistle Bans at Highway-Rail                                             Open
     FRA                                               Final Rule       7/1/2001                           3.3
                Grade Crossings                                                           IFR
                National Environmental Policy
                                                                                       9/20/2002
     FTA        Act and Related Procedures for         Final Rule      5/18/1992                          10.3
                                                                                       Withdrawni/
                Transportation Decisionmaking
                                                         NPRM          10/7/1998         4/7/1999          0.5
                Major Capital Investment
     FTA
                Projects                               Final Rule      12/7/1998        12/7/2000          2.0
                Maps and Records of Pipeline
                Locations and Characteristics;                                         1/25/2002
     RSPA                                              Final Rule      11/1/1989                          12.2
                Notification of State Agencies;                                        Withdrawnj/
                Pipe Inventory
                Safeguarding Food From
     RSPA       Contamination During                   Final Rule       8/1/1991          Openc/          13.2
                Transportation
                Response Plans for Onshore Oil                                           Open c/
     RSPA                                              Final Rule      8/18/1992                          12.1
                Pipelines                                                                 IFR
                Pipeline Safety: Areas
     RSPA       Unusually Sensitive to                 Final Rule      10/24/1994      12/21/2000          6.2
                Environmental Damage
                Increased Inspection
     RSPA                                              Final Rule      10/24/1995       12/1/2000          5.1
                Requirements
                Emergency Flow Restricting
     RSPA                                              Final Rule      10/24/1996       12/1/2000          4.1
                Devices
                Pipeline Safety: Pipeline+
                Integrity Management in High-
     RSPA       Consequence Areas (Gas                 Final Rule      12/17/2003      12/15/2003         N/A
                Transmission Pipeline
                Operators)
                Eligibility of U.S.-Flag Vessels
                of 100 Feet or Greater To Obtain
   MARAD                                               Final Rule       4/1/2000        7/19/2000          0.3
                Commercial Fisheries
                Documents

 ANPRM: Advanced Notice of Proposed Rulemaking
 NPRM: Notice of Proposed Rulemaking
   Data source: information on significant rules with statutory deadlines obtained from the DOT Semiannual
   Regulatory Agendas for fall 1999 through spring 2004 and DOT’s reports on significant rules from October 2002
   through October 2004.
a/ See Exhibit B for a list of DOT acronyms.
b/ This rule was withdrawn because OMB issued additional guidance that covered the purpose of this rule.
c/ For rules that are still open, the number of years overdue was calculated from the original deadline to
   September 30, 2004.
d/ The section of the law that required this rule was repealed.
e/ Alternative action covered the purpose of this rule.
f/ This rulemaking was merged with the Hours of Service of Drivers; Driver Rest and Sleep for Safe Operations rule
   after the NPRM was issued.
g/ These rules were transferred to FMCSA when FMCSA was created.
h/ This rule was approved for withdrawal on November 17, 2004.


Exhibit D. Rules with Statutory Deadlines from 1999 to
September 30, 2004
                                                                                                                  24


i/ Agencies determined that this rule generated such diversity and disparity of comments that further substantial work
   was necessary.
j/ RSPA implemented a pipeline mapping system which eliminated the need for a rule.




Exhibit D. Rules with Statutory Deadlines from 1999 to
September 30, 2004
